TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                           Office of Inspections and Evaluations




                           Inspection of Physical Security
                           Controls at Selected Facilities



                                      December 5, 2013

                            Reference Number: 2014-IE-R003




  The Treasury Inspector General for Tax Administration (TIGTA) has designated this inspection
 report as Sensitive But Unclassified pursuant to Chapter III, Section 24, of the Treasury Security
 Manual (TD P 15-71) entitled, “Sensitive But Unclassified Information.” Because this document
    has been designated as Sensitive But Unclassified, it may be made available only to those
       officials who have a need to know the information contained within this report in the
     performance of their official duties. This report must be safeguarded and protected from
  unauthorized disclosure; therefore, all requests for disclosure of this report must be referred to
                  the Disclosure Section within TIGTA’ s Office of Chief Counsel.

                                   Sensitive But Unclassified




 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                      Sensitive But Unclassified

                Inspection of Physical Security Controls at Selected Facilities




                                                                      Appendix

                 Major Contributors to This Report

Kevin P. Riley, Director, Inspections & Evaluations
James A. Douglas, Supervisory Evaluator
John L. da Cruz, Lead Program Analyst
Dolores M. Castoro, Auditor




                                      Sensitive But Unclassified
                                                                                  2
